               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Fiscal Year 2011 Postal Service
        Financial Statements Audit –
       Washington, D.C., Headquarters

                       Audit Report




                                          December 12, 2011

Report Number FT-AR-12-005
                                                                     December 12, 2011

                                                      Fiscal Year 2011 Postal Service
                                                         Financial Statements Audit –
                                                      Washington, D.C., Headquarters

                                                          Report Number FT-AR-12-005



IMPACT ON:
Overall audit opinions on the U.S. Postal     the general ledger account balances are
Service’s financial statements and            fairly stated in accordance with
internal controls over financial reporting.   accounting principles generally
                                              accepted in the U.S.; general ledger
WHY THE OIG DID THE AUDIT:                    account balances conform with the
Our objectives were to determine              general classification of accounts of the
whether:                                      Postal Service on a basis consistent
 Financial accounting policies and           with that of the previous year; the Postal
  procedures of the Postal Service            Service had one instance of
  provide for an adequate internal            noncompliance related to the
  control structure and comply with           suspension of the employer Federal
  accounting principles generally             Employees Retirement System
  accepted in the U.S.                        obligation. We did not propose any
 Accounting transactions at                  adjustments; however, we identified a
  headquarters that impact the general        control deficiency regarding manual
  ledger account balances for assets,         journal voucher (JV) processing. This
  liabilities, equity, income, and            item was not material to the financial
  expenses of the Postal Service are          statements and did not affect the overall
  fairly stated in accordance with            adequacy of internal controls.
  accounting principles generally
  accepted in the U.S.                        WHAT THE OIG RECOMMENDED:
 General ledger account balances             We are not making any
  conform to the general classification of    recommendations because
  accounts of the Postal Service on a         management agreed to provide
  basis consistent with that of the           appropriate oversight to ensure the JV
  previous year.                              issues identified do not occur in the
 The Postal Service complies with laws       future.
  and regulations that have a direct and
  material effect on the statements taken     WHAT MANAGEMENT SAID:
  as a whole.                                 We provided a draft copy of this report
                                              to management on November 17, 2011,
WHAT THE OIG FOUND:                           and, because we made no
Financial accounting policies and             recommendations, management chose
procedures provide for an adequate            not to respond formally to this report.
internal control structure; accounting
transactions at headquarters impacting        Link to review the entire report
December 12, 2011

MEMORANDUM FOR:             TIMOTHY F. O’REILLY
                            VICE PRESIDENT, CONTROLLER




FROM:                       John E. Cihota
                            Deputy Assistant Inspector General
                             for Financial Accountability

SUBJECT:                    Audit Report – Fiscal Year 2011 Postal Service Financial
                            Statements Audit – Washington, D.C., Headquarters
                            (Report Number FT-AR-12-005)

This report presents the results of our audit of the selected financial activities and
accounting records at Washington, D.C., Headquarters for the fiscal year ended
September 30, 2011 (Project Number 11BM004FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Jack L. Meyer
    Corporate Audit and Response Management
Fiscal Year 2011 Postal Service Financial Statements                                                                    FT-AR-12-005
 Audit – Washington, D.C., Headquarters



                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Manual JV Entry Processing ............................................................................................... 2

Recommendation ................................................................................................................ 3

   Background ...................................................................................................................... 4

   Objectives, Scope, and Methodology ............................................................................. 4

   Prior Audit Coverage ....................................................................................................... 6
Fiscal Year 2011 Postal Service Financial Statements                                                    FT-AR-12-005
 Audit – Washington, D.C., Headquarters



Introduction

This report presents the results of our audit of the selected financial activities and
accounting records at the Washington, D.C., Headquarters for the fiscal year (FY)
ended September 30, 2011(Project Number 11BM004FT000). We conducted this audit
in support of the independent public accounting firm’s (IPA) overall audit opinions on the
U.S. Postal Service’s financial statements and internal controls over financial reporting. 1
This audit addresses financial risk. See Appendix A for additional information about this
audit.

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. Also, the U.S. Congress enacted Sarbanes-Oxley
(SOX) legislation in calendar year 2002 to strengthen public confidence in the accuracy
and reliability of financial reporting. Section 404 of SOX requires management to state
its responsibility for establishing and maintaining an adequate internal control structure
and make an assertion on the effectiveness of the internal control structure over
financial reporting. The Postal Accountability and Enhancement Act of 2006 requires the
Postal Service to comply with Section 404 of SOX. The Board of Governors (Board)
contracted with the IPA to express opinions on the Postal Service’s financial statements
and internal controls over financial reporting.

Conclusion

During our audit at the Washington, D.C., Headquarters, we noted:

   Financial accounting policies and procedures of the Postal Service provide for an
    adequate internal control structure 2 and comply with accounting principles generally
    accepted in the U.S.

   Accounting transactions at headquarters impacting the general ledger account
    balances for assets, liabilities, equity, income, and expenses of the Postal Service
    are fairly stated in accordance with accounting principles generally accepted in the
    U.S.

   General ledger account balances conform with the general classification of accounts
    of the Postal Service on a basis consistent with that of the previous year.

   The Postal Service had one instance of noncompliance related to the suspension of
    the employer Federal Employees Retirement System (FERS) obligation. Based on
    advice received from the Office of Legal Counsel at the U.S. Department of Justice,
    in Quarter I, 2012, the Postal Service is expected to resume the regular biweekly
1
  The IPA maintains overall responsibility for testing and review of significant headquarters accounts and processes.
The U.S. Postal Service Office of Inspector General (OIG) coordinated audit work with the IPA to ensure adequate
coverage.
2
  To ensure key controls are properly designed and operationally effective.
                                                             1
Fiscal Year 2011 Postal Service Financial Statements                                                   FT-AR-12-005
 Audit – Washington, D.C., Headquarters


        payments for its FERS employer’s contributions as well as remit all previously
        withheld payments, including the $911 million accrued at September 30, 2011.

We did not propose any adjustments; however, throughout the year, we reviewed
internal controls over financial reporting and identified a control deficiency 3 regarding
manual journal voucher (JV) processing. This item was not material to the financial
statements and did not affect the overall adequacy of internal controls.

Manual JV Entry Processing

Our review of the JVs for FY 2011 has shown continued improvement to the process,
and we did not identify the same issue reported in the prior fiscal year. However, as
shown in the following table, of the 632 manual JVs reviewed, we found two instances
where a required supplemental control 4 was not exercised. In one instance, no evidence
existed on a JV form showing that data entry was reviewed and approved. 5 We
discussed this with management, and they provided alternate evidence the data entry
had been reviewed by an individual other than the one who did the data entry.
Nevertheless, they agreed the reviewer should have initialed the JV form. Another JV
did not indicate the lead accountant performed an overall final review and moved the JV
entry for posting into the general ledger. 6 We discussed this with management who
indicated it was an oversight, but the JV entry was moved for posting into the general
ledger. They stated if it had not been moved for posting, Eagan Information Technology
and Accounting Service Center (IT/ASC) personnel would have notified the lead
accountant that an outstanding JV entry needed to be moved for posting.

                                               JV Review Results
                                                                                                 FY 2010
         Timeframe of JV (Quarter)                       Internal Control Issue
                                                                                                 Instances
    1         2        3         4       Total

    -         --       --        --        0          Some or all support missing                      1
                                                     No evidence of final approval,
    --        --       1         1         2                                                           0
                                                    input into the JEV, or recorded.
Source: JEV forms on file at Corporate Financial Reporting.




3
  A control deficiency exists when the design or operation of a control does not allow management or employees, in
the normal course of performing their assigned functions, to prevent, or detect and correct misstatements on a timely
basis.
4
  Any control created by Corporate Financial Reporting (CFR) supplementing Handbook F-1, Accounting and
Reporting Policy, and Handbook F-20, General Ledger Accounting and Financial Reporting System, chapters 2 and
5.
5
  CFR supplemental procedure Number 4 requires an individual other than the one entering the JV into Journal Entry
Vehicle (JEV) reviews and approves the data entry and initials the JV form as evidence of his review.
6
  CFR supplemental procedure Number 6 requires the lead accountant to perform an overall final review of the JV
and its input into the JEV, and to write an ‘M’ on the JV form to show the JV has been reviewed and moved to the
general ledger for posting.


                                                          2
Fiscal Year 2011 Postal Service Financial Statements                      FT-AR-12-005
 Audit – Washington, D.C., Headquarters


Recommendation

Management agreed to provide appropriate oversight to applicable personnel to ensure
these issues do not occur in the future. Therefore, we are not making a
recommendation. However, we will continue to review these controls as part of our
annual financial statement work.




                                                       3
Fiscal Year 2011 Postal Service Financial Statements                                                  FT-AR-12-005
 Audit – Washington, D.C., Headquarters


                                 Appendix A: Additional Information

Background

Postal Service Headquarters Finance establishes accounting policies and provides
guidelines for recording and reporting Postal Service financial transactions. Internal
control and reporting systems have been created to ensure management and the public
receive meaningful financial information in accordance with generally accepted
accounting principles.

We will issue separate financial statements audit reports for the Eagan, MN; San Mateo,
CA; and St. Louis, MO IT/ASCs. Further, in addition to the overall opinions on the Postal
Service’s financial statements and internal controls over financial reporting, the Board
IPA issued a separate report on its consideration of the Postal Service’s internal
controls and its test of compliance with certain provisions of laws, regulations, contracts,
and other matters. The purpose of that report was to describe the scope of testing of
internal controls over financial reporting and compliance and the results of that testing,
not to provide an opinion on internal controls over financial reporting or on compliance. 7
The OIG will also issue a separate report for the audit of the FY 2011 information
system controls at the Eagan, San Mateo, and St. Louis IT/ASCs; and the Raleigh, NC
Information Technology Service Center.

Objectives, Scope, and Methodology

The objectives of the audit were to determine whether: 8

   The financial accounting policies and procedures of the Postal Service provide for an
    adequate internal control structure 9 and comply with accounting principles generally
    accepted in the U.S.

   Accounting transactions at headquarters that impact the general ledger account
    balances for assets, liabilities, equity, income, and expenses of the Postal Service
    are fairly stated in accordance with accounting principles generally accepted in the
    U.S.

   General ledger account balances conform with the general classification of accounts
    of the Postal Service on a basis consistent with that of the previous year.

   The Postal Service complies with laws and regulations that have a direct and
    material effect on the financial statements taken as a whole.



7
  In addition to work performed by the IPA, these reports encompass work performed by the OIG at headquarters, the
three IT/ASCs, field sites, and the Raleigh, NC Information Technology Service Center.
8
  The IPA maintains overall responsibility for testing and review of significant headquarters accounts and processes.
The OIG coordinated audit work with the IPA to ensure adequate coverage.
9
  To ensure key controls are properly designed and operationally effective.


                                                          4
Fiscal Year 2011 Postal Service Financial Statements                                                   FT-AR-12-005
 Audit – Washington, D.C., Headquarters


As part of our audit, we reviewed internal controls and processes and significant
headquarters accounts (for example, cash, investments, and workers’ compensation),
manual JVs, 10 and laws and regulations. We verified the Board travel and
miscellaneous expenses totaling about $163,000 and external professional fees totaling
about $1.4 million; and tested officers’ travel and representation expenses totaling about
$700,000. We issued a separate report for the FY 2011 Board’s travel and
miscellaneous expenses 11 and will issue a separate report for the FY 2011 officers’
travel and representation expenses.

We conducted this audit from January through December 2011 in accordance with the
standards of the Public Company Accounting Oversight Board (United States) (PCAOB)
and the standards applicable to financials audits contained in the Government Auditng
Standards issued by the comptroller general of the U.S. Those standards require we
plan and perform the audit to obtain sufficient, appropriate evidence to limit audit risk to
a low level that is, in our professional judgment, appropriate for supporting the overall
audit opinion on the financial statements. Those standards also require considering the
results of previous engagements and following up on known significant findings and
recommendations that directly relate to the objectives of the audit. An audit also
includes obtaining a sufficient understanding of internal controls to plan the audit and to
determine the nature, timing, and extent of audit procedures to be performed. We
believe the evidence obtained provides a reasonable basis for our conclusion based on
our audit objectives.

We supported the IPA in obtaining reasonable assurance about whether the financial
statements were free of material misstatement (whether caused by error or fraud).
Absolute assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with the PCAOB
standards and Government Auditing Standards may not detect a material misstatement.
However, the IPA and the OIG are responsible for ensuring that appropriate Postal
Service officials are aware of any significant deficiencies that come to our attention. We
provided a draft copy of this report to management on November 17, 2011, and,
because we did not make any recommendations, management chose not to respond
formally to this report.

We relied on computer-generated data from several Postal Service financial systems,
including:

    eTravel.
    Chase Insight.
    Workers’ Compensation Master File.
    Accounting Data Mart.
10
   Statement on Auditing Standards (SAS) Number 99, Consideration of Fraud in a Financial Statement Audit, as
amended by SAS 113, Omnibus 2006, requires auditors to perform certain tasks to address the risk of management
override of internal control. To address such situations, SAS Number 99 requires auditors to test the appropriateness
of journal entries recorded in the general ledger and other adjustments.
11
   Postal Service Board of Governors’ Travel and Miscellaneous Expenses for Fiscal Year 2011 (Report Number
FT-AR-12-004, dated December 6, 2011).


                                                          5
Fiscal Year 2011 Postal Service Financial Statements                                     FT-AR-12-005
 Audit – Washington, D.C., Headquarters



We assessed the reliability of these systems’ data by performing specific internal control
and transaction tests, including tracing selected financial information to supporting
source records. For example, we traced workers’ compensation master file data to a
random sample of 60 case files. We determined the data were sufficiently reliable for
the purposes of this report.

Prior Audit Coverage

                                                        Final
                               Report                  Report
     Report Title              Number                   Date           Report Results
  Fiscal Year 2010          FT-AR-11-002          12/6/2010     We did not propose any
  Postal Service                                                adjustments; however, we
  Financial                                                     identified a control deficiency
  Statements Audit –                                            regarding manual JV
  Washington, D.C.,                                             processing. Because
  Headquarters                                                  management took corrective
                                                                action, we did not make any
                                                                recommendations.
  Fiscal Year 2009          FT-AR-10-005          11/30/2009     We did not propose any
  Postal Service                                                 adjustments; however, we
  Financial                                                      identified a control deficiency
  Statements Audit –                                             regarding manual JV
  Washington, D.C.,                                              processing. Because
  Headquarters                                                   management took corrective
                                                                 action, we did not make any
                                                                 recommendations.
  Fiscal Year 2008          FT-AR-09-007          1/16/2009     We did not propose any
  Postal Service                                                adjustments; however, we
  Financial                                                     identified a control deficiency
  Statements Audit –                                            regarding manual JV
  Washington, D.C.,                                             processing. This item was not
  Headquarters                                                  material to the financial
                                                                statements and did not affect
                                                                the overall adequacy of internal
                                                                controls. We recommended
                                                                management develop formal
                                                                written procedures for manual
                                                                JV processing and distribute
                                                                them to all applicable personnel.
                                                                Management agreed with the
                                                                recommendation and developed
                                                                formal written procedures.




                                                       6
